                              System Review Report and
                                comment letter for the
                               Audit Peer Review of the
Office of Inspector General
                                 Election Assistance
                                Commission’s Office of
                                  Inspector General
         Peer Review




                                               July 2012



                                              Federal Labor Relations Authority
                              1400 K Street, N.W. Suite 250, Washington, D.C. 20424
                                           UNIITED STAT
                                                      TES OF AME  ERICA
                                      FEDERAL
                                      F       LABOR
                                              L      RE
                                                      ELATIONS AUTHORIITY
                                           WASSHINGTONN, D.C. 204224-0001

INSPECTOR GENERAL

                                                Systtem Review
                                                             w Report

   July 31, 2012
            2

   To: Curtiis W. Criderr, Inspector General
                                     G
   U.S. Elecction Assistaance Commiission


   We have reviewed th   he system off quality conttrol for the aaudit function of the U.SS. Election
   Assistancce Commission (EAC), OfficeO       of thee Inspector GGeneral (OIGG) in effect ffor the periood
   October 1, 2010 through March 31,  3 2012. A system of qquality contrrol encompassses the EAC         C
   OIG’s orrganizationall structure annd the policiies adopted aand procedur ures establishhed to providde it
   with reassonable assurrance of connforming witth Governmeent Auditingg Standards ((GAS). The
   elements of quality control
                        c        are deescribed in GAS.
                                                    G       The EA AC OIG is rresponsible ffor designingg a
   system of quality con ntrol and commplying with   h it to providde the EAC OIG with reeasonable
   assurancee of perform
                       ming and repo  orting in con nformity withh applicablee professionaal standards in all
   material respects. Ou ur responsibiility is to exp
                                                    press an opinnion on the ddesign of thee system of
   quality coontrol and th
                         he EAC OIG  G’s complian   nce therewithh based on oour review.

   Our revieew was cond   ducted in acccordance witth Governmeent Auditingg Standards aand guidelinnes
   established by the Co  ouncil of thee Inspectors General
                                                      G        on IIntegrity andd Efficiency (CIGIE).
   During our
           o review, we  w interviewed EAC OIG       G personnel and obtained an understtanding of thhe
   nature off the EAC OIIG audit fun  nction, and th he design off the EAC OIIG’s system of quality
   control suufficient to assess
                          a      the rissks implicit in
                                                      i its audit fu
                                                                  function. Bassed on our assessments, we
   selected audits
             a       and addministrative files to tesst for conformmity with prrofessional sttandards andd
   complian nce with the EAC OIG’s system of qualityq         controol. The audiits selected represented a
   reasonable cross-secttion of the EAC
                                      E      OIG’s audit
                                                     a      organizzation, with an emphasiss on higher-rrisk
   audits. Prrior to conclluding the reeview, we reaassessed the adequacy oof the scope oof the peer
   review prrocedures an  nd met with EAC OIG management
                                                    m               to discuss thhe results off our review. We
   believe th
            hat the proceedures we peerformed pro    ovide a reasoonable basis for our opinnion.

   In perforrming our rev view, we obttained an unnderstandingg of the systeem of qualityy control for the
   EAC OIG  G’s audit fun nction. In ad
                                      ddition, we tested
                                                   t      complliance with tthe EAC OIG   G’s quality
   control policies
           p         and procedures
                          p           to the extent we considerred appropriiate. These teests coveredd the
   applicatioon of the EAAC OIG’s po  olicies and prrocedures onn selected auudits. Our reeview was baased
   on selected tests; therrefore, it wo
                                      ould not neceessarily dete ct all weaknnesses in the system of
   quality coontrol or all instances off noncompliaance with it.

   There aree inherent lim
                         mitations in the effectiveeness of anyy system of qquality controol and thereffore
   noncomp pliance with the system ofo quality co ontrol may occcur and nott be detectedd. Projectionn of
   any evaluuation of a sy
                         ystem of quaality control to future peeriods is subjject to the risk that the
   system of quality con ntrol may beecome inadeq  quate becausse of changees in conditioons, or becauuse
   the degreee of compliaance with th
                                    he policies orr proceduress may deterioorate.
Enclosurre 1 to this reeport identifiies the officee of the EAC
                                                              C OIG that w
                                                                         we visited annd the audits
reviewed
       d by the FLR  RA OIG Team     m.

In our op
        pinion, the sy ystem of quaality control for the auditt organizatioon of EAC O  OIG in effectt for
the period October 1, 2010 throu  ugh March 31, 2012, has been suitably designed and complieed
with to provide EAC  C OIG with reeasonable asssurance of pperforming aand/or reportting in
conformiity with appllicable profeessional standards in all m material resppects. Federal audit
organizattions can recceive a ratingg of pass, paass with deficciencies, or ffail. The EA
                                                                                        AC OIG has
received a peer review rating of pass.
                                    p      As is customary,
                                                  c           w
                                                              we have issuued a letter ddated July 311,
2012, thaat sets forth findings
                       f        relaated to the deesign of and compliancee with EAC O    OIG’s systemm of
quality co
         ontrol that were
                      w not considered to bee of sufficiennt significannce to affect our opinion
expressedd in this repoort.

In additio
         on to review
                    wing its system of quality y control to eensure adherrence with G Government
Auditing Standards, wew applied certain
                                  c       limiteed procedurees in accordaance with guuidance
established by the CIIGIE related to EAC OIG   G’s monitoriing of audit engagementts performedd by
Independ dent Public Accountants
                     A              (IPA) underr contract whhere the IPA A served as thhe principal
auditor. It
         I should be noted that monitoring
                                 m            off audit engaggements performed by IP     PA is not suubject
to the req
         quirements of
                     o the Govern  nment Auditting Standard  rds. The purppose of our llimited proceedure
was to deetermine whether EAC OIG O had con    ntrols to ensuure IPAs perrformed conttracted auditt
work in accordance
         a            with
                      w professiional standarrds. Howeveer, our objecctive was nott to express aan
opinion and
         a accordin  ngly, we do not
                                  n express an  a opinion, oon EAC OIG    G’s monitoriing of audit
engagem ments performmed by IPAss. We have issued
                                                i      a letteer dated Julyy 31, 2012 thhat sets forthh
commentts on EAC OIG’s
                    O       monito oring of audit engagemeents performed by IPAs. These
commentts do not affefect the opiniion expresseed in this repport.




 Dana Roooney-Fisherr
Inspectorr General


Enclosurre




                                                    2
                       SCOPE AND METHODOLOGY (Enclosure 1)

Scope and Methodology

We tested compliance with the EAC OIG’s audit organization’s system of quality control to the
extent we considered appropriate. These tests included a review of 4 of 18 audit and attestation
reports issued during the period October 1, 2010 through March 31, 2012, and semiannual
reports for the reporting periods ending October 1, 2010 through March 31, 2012. We also
reviewed the internal quality control reviews performed by EAC OIG.

In addition, we reviewed the EAC OIG’s monitoring of audits performed by IPAs where the IPA
served as the principal auditor during the period of April 1, 2011 through March 31, 2012.
During the period, EAC OIG contracted for the audit of its agency’s Fiscal Year 2011financial
statements. EAC OIG also contracted for certain other audits that were to be performed in
accordance with Government Auditing Standards.

The FLRA OIG visited the EAC OIG in Washington, DC.

Reviewed Audit Performed by EAC OIG

Report No.        Report Date             Report Title
E-HP-SP-          November 2010           Administration of Grant Funds Received Under the
0510                                      Help America Vote College Program by Project Vote
                                          Audit Report


Reviewed Monitoring Files of EAC OIG for Contracted Engagements

Report No.        Report Date             Report Title
E-HP-PA-10-       May 2011                Administration of Payments Received Under the Help
10                                        America Vote Act by the Pennsylvania Bureau of
                                          Commission, Elections and Legislation
I-PA-EAC-         October 2011            Evaluation of Compliance with the Requirements of
02-11                                     the Federal Information Security Management Act
                                          Fiscal Year 2011
I-PA-EAC-         November 2011           Independent Auditors’ Report U.S. Election
01-11                                     Assistance Commission Financial Statements for FY
                                          2011 and FY 2010




                                          Enclosure 1.1
                                         UNIITED STAT
                                                    TES OF AME  ERICA
                                    FEDERAL
                                    F       LABOR
                                            L      RE
                                                    ELATIONS AUTHORIITY
                                         WASSHINGTONN, D.C. 204224-0001

INSPECTOR GENERAL




   July 31, 2012
            2

   Curtis W.
          W Crider, Insspector Geneeral
   U.S. Elecction Assistaance Commiission


   We have reviewed th he system off quality conttrol for the aaudit organizzation of the U.S. Electioon
   Assistancce Commission (EAC) Office
                                    O       of the Inspector G
                                                             General (OIG G) in effect ffor the periodd
   October 1, 2010 through March 31,  3 2012, an nd have issueed our final rreport thereoon dated
   July 31, 2012,
            2     in whiich the EAC OIG received a rating oof pass. Thaat report shouuld be read iin
   conjunctiion with the comments in i this letter, which weree consideredd in determinning our opinnion.
   The findiings describeed below weere not consiidered to be of sufficientt significancce to affect thhe
   opinion expressed
            e         in that report.

   Finding 1.
           1 Completiing and Docu
                                umenting Trraining of alll Members oof the Audit Team

   We noted d a need for a systematicc method forr identifying and monitoring EAC O   OIG employeees’
   training requirements
            r           s and their progress in co
                                                 ompleting m mandatory traaining, as evvidenced by tthe
   followingg examples.

          Notification
          N             and
                        a Federal Employee
                                       E          Antidiscrimin
                                                  A              nation and R           Act (No Fear Act)
                                                                            Retaliation A
          The
          T No Fear Act of 2002, which becaame effectivve on Octobeer 1, 2003, reequires agenncies
          to
           o provide traaining at leasst every 2 yeears to its em
                                                                mployees, inccluding managers, regardding
          th
           he rights andd remedies av vailable undder the emplooyment discrrimination aand
          whistleblowe
          w              r protection laws. An EACE      OIG em mployee commpleted the mmandatory
          trraining but not
                        n within thee required 2 years.

   Our revieew also discllosed a simillar conditionn regarding aauditors on lloan from otther Federal
   agencies,, which was identified ass a finding inn the prior ppeer review ccompleted byy the Federaal
   Maritimee Commissio  on Office of Inspector General,
                                                  G         datedd June 10, 20009. Speciffically, we nooted
   that the EAC
            E     OIG utilized the serrvices of anoother Federaal Office of IInspector Geeneral in
   performin ng an indepeendent refereencing revieew of an EAC   C OIG auditt. The EAC O  OIG was nott able
   to producce evidence that the indeependent refeferencer had met continuuing professional educatiion
   (CPE) requirements as a specified by Governm   ment Auditinng Standardss (GAS). Addditionally, w   we
   found theere was no written
                       w        agreeement detailiing the scopee of the servvices to be prrovided and
   related reequirements,, such as a prrovision thatt the revieweer has satisfi
                                                                             fied CPE requuirements.

   Recomm
        mendation 1A
                   A – The EACC OIG should  d implementt a tracking ssystem to ennsure all EAC   C
   OIG emp
         ployees comp
                    plete mandaatory training
                                            g and withinn the time perriod requiredd. Further, thhe
   EAC OIG
         G should imp
                    plement con
                              ntrols to ensuure that all auuditors who perform woork for the EA  AC
OIG (including auditors on detail or loan), have satisfied continuing professional education
requirements, and that documentation evidencing completion of training is available for review.

Recommendation 1B - When utilizing staff from other Federal OIGs to assist on audit
engagements in accordance with generally accepted government auditing standards (GAGAS),
the EAC OIG should document terms of the agreement in writing with a memorandum of
understanding (MOU). The MOU should contain a provision to ensure staff have met CPE
requirements.

EAC OIG Response

The OIG concurs with both recommendations. The OIG will establish a tracking system to
ensure that all EAC OIG employees complete mandatory training within the time period
required. The OIG will enter into memorandum of understanding with other Federal OIG’s when
utilizing non EAC OIG personnel on GAGAS assignments. As a part of that process, we will
obtain documentation that the auditor on loan has met the continuing professional education
requirements

FLRA OIG Analysis of EAC OIG Response

The FLRA OIG believes that the recommendations, when implemented, will address the
weaknesses identified.


Finding 2. IPA Monitoring – Monitoring Oversight Tool Not Used

EAC OIG’s policies and procedures require that, for audits performed by contractors, OIG
complete the Project Quality Control Checklist – Monitoring Audits Performed by an
Independent Public Accountant (IPA). During our review of EAC OIG’s audit of the FY 2011
Financial Statement and the FY 2011 FISMA Evaluation, we noted that Project Quality Control
Checklist was not completed or included in the workpapers.

Recommendation – The EAC OIG should ensure that its checklist is completed for each IPA
performed audit.

EAC OIG Response

The OIG concurs with this recommendation. The Project Quality Control Checklist will be
completed for all audits performed by contractors.

FLRA OIG Analysis of EAC OIG Response

The FLRA OIG believes that this recommendation, when implemented, will address the
weakness identified.




                                                2
Finding 3.
        3 IPA Mon
                nitoring – Ev
                            vidence of Au
                                        uditor Trainning Not Obttained

The EAC C OIG obtain ned services from an IPA A under a coontract with a period of pperformance
from begginning in fisscal year (FY
                                  Y) 2006 to FY 2011 inclluding optionn periods. W We noted thaat
regardingg the audit work
                     w     performmed by the IP
                                              PA during thhe period covvered by ourr review, thee
EAC OIG  G did not obtain documeentation from                                       members of the
                                              m the contracctor evidencing that all m
audit team
         m had comp  plied with Coontinuing Pro
                                              ofessional E
                                                         Education (C CPE) requirem ments.

Recomm  mendation – The
                     T EAC OIIG should ad      dhere to the G
                                                            GAGAS reqquirements foor CPE
Requirem ments for speecialists. Sp
                                  pecifically, th
                                                he OIG shouuld obtain CPPE documenntation from all
staff of th
          he IPA. If contract optioon years are exercised, thhe IPA shouuld provide ddocumentatioon of
CPE’s fo or each optio
                     on year exerccised.

EAC OIG
      G Response

The OIG concurs with h this recomm
                                 mendation. The
                                            T EAC OIG    G will obtain, on annual bbasis,
documenttation from the IPA docu            E for staff as signed to EA
                                 umenting CPE                         AC audits. If new employeees
are assign
         ned to an EA
                    AC audit, CPEE documentattion will be oobtained imm
                                                                      mediately.

FLRA OIG Analysis of EAC OIG
                           G Response

The FLR
      RA OIG belieeves that thiss recommendation, whenn implementted, will adddress the
weaknesss identified.

The FLRRA OIG extends its appreeciation for the
                                            t support aand cooperat
                                                                 ation the EAC
                                                                             C OIG proviided
during ou
        ur review.




Dana Rooney-Fisherr
Inspectorr General




                                                  3
                          U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1201 New York Ave. NW - Suite 300
                                      Washington, DC 20005


Ms. Dana Rooney-Fisher                                              July 18, 2012
Inspector General
Federal Labor Relations Authority
1400 K Street, N.W.
Suite 250
Washington, DC 20424

Dear Ms. Rooney-Fisher:

Thank you for the opportunity to respond to your July 11, 2012 draft letter of comment on the
external peer review of the U.S. Election Assistance Commission (EAC), Office of Inspector
General (OIG) audit function. We agree with your conclusion that our system of quality control
was suitably designed and provided us with reasonable assurance of performing and reporting
audit results in conformity with applicable professional standards. We are pleased to receive a
peer review rating of pass.

The draft letter of comment discusses four issues that you determined were not considered to be
of sufficient significance to affect our peer review rating. We concur with all four
recommendations in the draft letter and provide the following responses.

 Recommendation 1A – The EAC OIG should implement a tracking system to ensure all EAC
OIG employees complete mandatory training and within the time period required. Further, the
EAC OIG should implement controls to ensure that all auditors who perform work for the EAC
OIG (including auditors on detail or loan), have satisfied continuing professional education
requirements, and that documentation evidencing completion of training is available for review.

Recommendation 1B - When utilizing staff from other Federal OIGs to assist on audit engagements
in accordance with generally accepted government auditing standards (GAGAS), the EAC OIG
should document terms of the agreement in writing with a memorandum of understanding (MOU).
The MOU should contain a provision to ensure staff have met CPE requirements.

EAC OIG Response

The OIG concurs with both recommendations. The OIG will establish a tracking system to ensure
that all EAC OIG employees complete mandatory training within the time period required. The OIG
will enter into memorandum of understanding with other Federal OIG’s when utilizing non EAC
OIG personnel on GAGAS assignments. As a part of that process, we will obtain documentation that
the auditor on loan has met the continuing professional education requirements.

Recommendation – The EAC OIG should ensure that its checklist is completed for each IPA
performed audit.
EAC OIG Response

The OIG concurs with this recommendation. The Project Quality Control Checklist will be
completed for all audits performed by contractors.

Recommendation – The EAC OIG should adhere to the GAGAS requirements for CPE
Requirements for specialists. Specifically, the OIG should obtain CPE documentation from all staff
of the IPA. If contract option years are exercised, the IPA should provide documentation of CPE’s
for each option year exercised.

EAC OIG Response

The OIG concurs with this recommendation. The EAC OIG will obtain, on annual basis,
documentation from the IPA documenting CPE for staff assigned to EAC audits. If new employees
are assigned to an EAC audit, CPE documentation will be obtained immediately.

We are committed to maintaining an effective system of quality controls and to working
continuously to improve our operations. Further, we appreciate the professional manner in which
you conducted the review and your willingness to share best practices between our organizations.
If you have any questions or comments relating to our response to the draft letter, please contact
me at (202) 566-3125.

                                       Sincerely,



                                       Curtis W. Crider
                                       Inspector General
CONTACTING THE OFFICE OF
  INSPECTOR GENERAL


                                                                        Office of Inspector General
IF YOU BELIEVE AN ACTIVITY IS WASTEFUL,
FRAUDULENT, OR ABUSIVE OF FEDERAL FUNDS,
CONTACT THE:




HOTLINE
 HOTLINE(800)331-3572
         (800)331-3572
HTTP ://://
  HTTP   WWW .FLRA
           WWW    .GOV
               .FLRA   /OIG
                    .GOV    -HOTLINE
                         /OIG -HOTLINE




                                                                                 Peer Review
EMAIL:        OIGMAIL@FLRA.GOV
CALL:         (202)218-7970
FAX:          (202)343-1072
WRITE TO:     1400 K Street, N.W. Suite 250,
              Washington, D.C. 20424




The complainant may remain confidential; allow their name to be
used; or anonymous. If the complainant chooses to remain
anonymous, FLRA OIG cannot obtain additional information on the
allegation, and also cannot inform the complainant as to what
action FLRA OIG has taken on the complaint. Confidential status
allows further communication between FLRA OIG and the
complainant after the original complaint is received. The identity of
complainants is protected under the provisions of the Whistleblower
Protection Act of 1989 and the Inspector General Act of 1978, as
amended. To learn more about the FLRA OIG, visit our Website at
http://www.flra.gov/oig
